           BUREAU OF JUSTICE ASSISTANCE 

    REPUBLICAN NATIONAL CONVENTION GRANT TO

THE CITY OF NEW YORK POLICE DEPARTMENT, NEW YORK 




             U.S. Department of Justice 

          Office of the Inspector General 

                   Audit Division 

         Philadelphia Regional Audit Office 


            Audit Report GR-70-07-001 

                   October 2006

             BUREAU OF JUSTICE ASSISTANCE 

        REPUBLICAN NATIONAL CONVENTION GRANT 

 TO THE CITY OF NEW YORK POLICE DEPARTMENT, NEW YORK

                  EXECUTIVE SUMMARY 


      The U.S. Department of Justice (DOJ), Office of the Inspector
General (OIG), Audit Division, has completed an audit of the
Republican National Convention grant 2004-DD-B5-1191.1 The DOJ,
Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA),
awarded the City of New York Police Department (NYPD) this grant to
provide traffic control, counterterrorism intelligence, and physical
security to delegates, visitors, and venues during the 2004 Republican
National Convention (RNC). In total, the BJA awarded the NYPD
$49,852,500 for police department overtime and fringe benefits.

      The purpose of our audit was to determine whether the costs
reimbursed under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms
and conditions of the grant. We also assessed the NYPD’s program
performance in meeting grant objectives and overall accomplishments.

      We determined that the NYPD generally complied with grant
requirements in the areas we tested. However, the NYPD did not
report the financial and program performance of the grant to BJA in a
accurate and timely manner. Additionally, the NYPD did not maintain
adequate documentation for all grant expenditures, and made errors in
calculating some expenditures. As a result of these deficiencies, we
question a total of $49,699 in expenditures: $47,307 in unsupported
expenditures and $2,392 in unallowable expenditures.2

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope,
and methodology appear in Appendix I.

      We discussed the results of our audit with NYPD officials and
have included their comments in the report, as applicable. In addition,


       1
         The OIG also completed an audit of a similar grant to the City of Boston to
provide security for the 2004 Democratic National Convention.

       2
         The Inspector General Act of 1978, as amended, contains our reporting
requirements for questioned costs. However, not all findings are dollar-related. See
Appendix II for a breakdown of our dollar-related findings and for definitions of
questioned costs.


                                         -i-
we requested a response to our draft audit report from the NYPD and
the BJA, and their responses will be appended to the final audit report.




                                  - ii -
                               TABLE OF CONTENTS




INTRODUCTION ........................................................................ 1 

Office of Justice Programs ............................................................ 2 

Bureau of Justice Assistance ......................................................... 2 

City of New York Police Department............................................... 2 

Our Audit Approach ..................................................................... 3 

FINDINGS AND RECOMMENDATIONS ....................................... 5 

Compliance With Essential Grant Requirements .............................. 5 

Reporting .................................................................................. 5 

    Financial Status Reports ........................................................ 5 

    Progress Reports .................................................................. 6 

Budget Management and Control .................................................. 7 

Expenditures ............................................................................. 8 

Drawdowns .............................................................................. 11 

Program Performance ................................................................ 12 

Other Reportable Matters ........................................................... 14 

Conclusions.............................................................................. 14 

Recommendations..................................................................... 15 

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ....... 16 

APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS.... 19 

APPENDIX III - CITY OF NEW YORK POLICE DEPARTMENT'S 

               RESPONSE TO THE DRAFT REPORT ................ 20 

APPENDIX IV -	 OFFICE OF JUSTICE PROGRAMS' RESPONSE 

               TO THE DRAFT REPORT.................................. 22 

APPENDIX V - 	OIG, AUDIT DIVISION, ANALYSIS AND 

              SUMMARY OF ACTIONS NECESSARY TO                    

              CLOSE THE REPORT ....................................... 24 

                               INTRODUCTION

      The U.S. Department of Justice (DOJ), Office of the Inspector
General (OIG), Audit Division, has completed an audit of the
Republican National Convention grant 2004-DD-B5-1191. The DOJ,
Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA),
awarded the City of New York Police Department (NYPD) this grant to
provide traffic control, counterterrorism intelligence, and physical
security to delegates, visitors, and venues during the 2004 Republican
National Convention (RNC). In total, the BJA awarded the NYPD
$49,852,500 for police department overtime and fringe benefits.

      Prior to both the Republican and Democratic National
Conventions in 2004, Congress recognized that the host cities would
require assistance to pay for security-related expenses. As part of the
Consolidated Appropriations Act of 2004, Congress directed the BJA to
provide the host cities of New York and Boston $25,000,000 each to
defray security costs, including overtime for law enforcement officers.3

      Just prior to the start of the Republican National Convention,
Congress passed the Fiscal Year 2005 Department of Defense
Appropriations Act on August 5, 2004. The Act directed the BJA to
make an additional $25,000,000 available for each host city. Some
members of Congress cited several factors to support the increased
funding, such as terrorist bombings in Europe and a warning from the
Attorney General and Director of the Federal Bureau of Investigation
that al Qaeda intended to “hit the United States hard” during the
months the conventions were held.

      From the initial appropriation, the NYPD submitted a budget for
$24,852,500 in personnel expenses and received the grant funding on
June 22, 2004. On March 21, 2005, after the convention had ended,
the NYPD received an additional award of $25,000,000 for personnel
and fringe costs incurred above the initial appropriation. The NYPD
received a total of $49,852,500 in grant funding. The majority of the
grant, $49,746,770, was spent on overtime for police personnel. The
remaining $105,730 was spent on fringe benefit expenses related to
the overtime charged. In addition to grant-funded expenses, the
NYPD estimates the City of New York expended an additional
$17,500,000 in local funds for other expenses related to RNC security.

       3
         The OIG has also completed an audit of the BJA grant awarded to the City of
Boston for security expenses associated with the 2004 Democratic National
Convention.


                                       - 1 -

      The objective of the audit was to determine whether
reimbursements claimed for costs under the grant were allowable,
supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grant. We also assessed
the NYPD’s performance in meeting grant objectives and its overall
accomplishments with the grant funds.

      The OJP administered this grant through the BJA Edward Byrne
Memorial State and Local Law Enforcement Assistance Discretionary
Grants Program. Eligible beneficiaries of this program include state
and local governments, public and private organizations, and tribal
governments. One of the objectives of the Byrne program is to
improve the functioning of the criminal justice system.

Office of Justice Programs

      The OJP within the U.S. Department of Justice provides the
primary management and oversight of the grant we audited. Through
the programs developed and funded by its bureaus and offices, the
OJP works to form partnerships among federal, state, and local
government officials in an effort to improve criminal justice systems,
increase knowledge about crime, assist crime victims, and to improve
the administration of justice in America.

Bureau of Justice Assistance

      The BJA is one of five OJP bureaus and is the agency that
awarded the RNC security grant. The BJA’s stated mission is to
support local, state, and tribal justice strategies to achieve safer
communities through leadership and services in grant administration
and criminal justice policy development. The BJA’s goals are to
improve the functioning of the criminal justice system and to reduce
and prevent crime, violence, and drug abuse.

City of New York Police Department

     The NYPD is the largest police department in the country,
employing over 36,000 sworn personnel and more than an additional
10,000 civilian employees. The NYPD’s stated mission is to enhance
the quality of life in the city by working in partnership with the
community to enforce the laws, preserve peace, reduce fear, and
provide for a safe environment.



                                 - 2 -

     In January 2003, New York City won the bid to host the 2004
Republican National Convention to take place August 30 to
September 2, 2004. At the convention, Republican Party members
gathered to nominate their presidential candidate. New York City had
not previously hosted a Republican national convention; however, the
City has hosted several Democratic national conventions, the most
recent in 1992. The NYPD, working with other federal, state, and local
law enforcement agencies, was responsible for ensuring safety during
the convention.

Our Audit Approach

      We tested compliance with what we considered to be the most
important conditions of the grant. Unless otherwise stated in our
report, we applied the OJP Financial Guide as our primary criteria in
auditing this grant. The OJP Financial Guide serves as a reference
manual assisting award recipients in their fiduciary responsibility to
safeguard awarded funds and ensure funds are used appropriately.
We tested the NYPD’s:

      	 Reporting to determine whether the required Financial Status
         Reports and progress reports were submitted on time and
         accurately reflect grant activity.

      	 Budget Management and Control to determine whether the
         grantee adhered to the OJP-approved budget for expenditures
         of grant funds.

      	 Grant Expenditures to determine whether the costs charged
         to the grant are allowable and supported.

      	 Requests for Grant Funding to determine whether the
         requests were adequately supported and if the grantee
         managed grant receipts in accordance with federal
         requirements.

      	 Program Performance to determine whether the NYPD
         achieved grant objectives and to assess performance and grant
         accomplishments.

      When applicable, we also test for compliance in the areas of
program income, matching funds, and monitoring of subgrantees. For
this grant, we determined that the NYPD generated no program




                                  - 3 -

income, matching funds were not required, and there were no
subgrantees.




                               - 4 -

                FINDINGS AND RECOMMENDATIONS

    COMPLIANCE WITH ESSENTIAL GRANT REQUIREMENTS

    We determined that the NYPD generally complied with grant
    requirements in the areas we tested. However, the NYPD did not
    report the financial and program performance of the grant to the
    BJA in an accurate and timely manner. Additionally, the NYPD did
    not maintain adequate documentation for all grant expenditures,
    and made errors in calculating some expenditures. As a result of
    these deficiencies, we question $49,699 in expenditures: $47,307
    in unsupported expenditures and $2,392 in unallowable
    expenditures.

Reporting

Financial Status Reports

      Financial Status Reports (FSR) provide BJA with a snapshot of
the NYPD’s grant-related expenditures and obligations for each
calendar quarter throughout the life of the grant. According to the OJP
Financial Guide, an FSR should be submitted within 45 days of the end
of the most recently past quarterly reporting period or within 120 days
of the end of the grant. Even when there have been no outlays, a
report containing zeroes must be submitted. Funds or future awards
may be withheld if reports are not submitted or are excessively late.

      During the approved grant period, February 2004 to
January 2006, the NYPD was required to submit nine FSRs. We found
the NYPD only submitted three of the nine required reports. We
reviewed the submitted FSRs for accuracy and timeliness. The
following table presents the dates and amounts of each report.

                          FSRs Submitted

         FSR Quarter Ending Date             Expenditure Amount
         June 30, 2004                                   $34,944
         September 30, 2004                                   $0
         March 31, 2005                              $49,817,556
         Total Expenditures
         Reported:                                  $49,852,500
          Source: BJA grant files




                                    - 5 -

      NYPD officials told us that expenditure data reported on each
FSR is retrieved from the city’s Payroll Management System (PMS). All
grant-related expenditures are entered into the system under a
specific code that identifies the expenditure as RNC-related and grant
reimbursable. We compared the expenditures reported on the
quarterly FSRs to the expenditures reported in the PMS. From our
review of PMS data, we determined that the FSR for September 30,
2004, reported zero expenditures, when it should have reported that
the entire original award of $24,852,500 had been expended. These
expenses were included on the FSR for March 31, 2005, along with the
expenditures from the supplemental award.

      To determine if the FSRs were submitted timely to the BJA, we
reviewed the submission date on the three FSRs filed by the NYPD.
The NYPD submitted the first FSR 17 days late and the second FSR 78
days late. The third FSR was submitted on time.

Progress Reports

      The NYPD is required to submit progress reports to OJP that
describe the performance of grant activities and accomplishments of
the objectives of the award. According to the OJP Financial Guide,
grant recipients are required to submit progress reports within 30 days
of the end of each reporting period, which are June 30 and
December 31, for the life of the award. The final progress report is
due within 120 days of the end of the grant.

       During the life of the grant, the NYPD would have been required
to submit five progress reports unless advised otherwise by the BJA.
When the grant period ended in January 2006, we determined the
NYPD had not submitted any progress reports to OJP. In April 2006,
just before the start of our audit, the NYPD submitted two progress
reports for the periods ending December 2004 and June 2005. The
report for period ending June 2005 was marked as final because all of
the grant funds had been expended and the program had ended. With
this report considered final, the NYPD still failed to submit the period
ending June 2004 report.

      We reviewed the two progress reports submitted to OJP for
accuracy. We found the first report consisted of a 1-page summary of
grant activities in general terms. The second report was a
1-paragraph explanation that the grant program had ended and all
funds were expended. We reviewed grant documentation and
concluded the progress reports were generally accurate, but did not


                                 - 6 -

have sufficient detail to determine if the grant objectives were fully
accomplished. Because the reports were not submitted until after the
award period had ended, we determined both reports were submitted
significantly late, by 174 and 445 days, respectively.

      In conclusion, the NYPD has not adequately provided OJP with
the required FSRs and progress reports. Specifically, the NYPD did not
accurately report grant expenditures on one FSR, submitted two FSRs
and two progress reports late, and failed to submit three FSRs and
three progress reports. We believe timely and accurate reports are
important tools for monitoring grant activity and reducing the risk that
grant funds might be used for unallowable purposes. Additionally,
during the life of the grant and for future awards, OJP may withhold
funding if reports are not on time and accurate. An NYPD official told
us they were not aware there was a problem with the timeliness or
completeness of FSRs and progress reports because OJP did not notify
them that reports were late or that additional reports were due.

Budget Management and Control

      Upon award approval, OJP provides a Financial Clearance
Memorandum to the grant recipient with the approved itemized budget
for the grant. From the NYPD’s Financial Clearance Memorandums, we
determined the approved budget for the original and supplemental
awards is as follows.

                       Approved Grant Budget

   Budget              Original                  Total
   Category             Award      Supplemental Budget
   Personnel          $24,852,500    $24,706,099  $49,558,599
   Fringe Benefits              $0      $293,901     $293,901
   Total             $25,852,500    $25,000,000 $49,852,500
   Source: Financial Clearance Memorandums

      The NYPD calculated the budget of $24,852,500 for the original
award by estimating the number of officers and hours of coverage
needed to secure the convention, multiplied by an average overtime
rate by rank. The estimated hours included pre-event training,
overtime for details during the convention, and command backfill.
Backfill is overtime paid to an employee working at their home
command to cover the shift of another employee assigned to work at
the RNC.



                                   - 7 -

      The original grant did not provide enough funds to pay for all of
the anticipated security costs of the convention. New York requested
additional funding, and the supplemental award was approved by
Congress just a few weeks before the start of the RNC. The NYPD
calculated the personnel budget for the supplemental award again by
estimating the number of officers and hours of coverage needed,
multiplied by an average overtime rate. In addition to personnel, the
NYPD budgeted $1,890,017 in fringe benefit costs. The fringe benefits
consisted solely of the NYPD’s share of Federal Insurance Contributions
Act (FICA) taxes due on the overtime wages and calculated by
multiplying the FICA rate of 7.65 percent times the budgeted
personnel expenses. In taking this approach, the total budget
submitted by the NYPD was $1,596,115 more than the $25,000,000
award appropriation. Because the BJA could not approve the entire
NYPD budget, the excess amount was listed on the Financial Clearance
Memorandum as a non-federal share, and only $293,901 was
approved for fringe expenses. The BJA said the non-federal amount
was not a required match, but was a necessary obligation for the
success of the grant program.

       The OJP Financial Guide states that grant expenditures must be
justified by the approved budget, and movement of dollars between
approved budget categories in excess of 10 percent of the total award
must be approved in advance. To determine if the NYPD adhered to
the budget, we compared the grant expenditures recorded in the PMS
system to the budget approved in the Financial Clearance Memo. We
determined that the NYPD effectively managed the budget and made a
minimal transfer of less than one percent of funds between approved
budget categories.

Expenditures

      The NYPD expended all of the grant funds on payroll for security
of the convention. The NYPD spent the majority of the award —
$49,746,770 — on personnel expenditures, including training, detail
overtime, and backfill. The remaining $105,730 was spent on fringe
benefits to cover a portion of the NYPD’s obligation of FICA taxes on
the overtime wages.

      The NYPD provided us with a listing from the PMS of all
personnel expenditures that were coded as RNC-related and charged
to the grant. The data had employee information, including the date
worked, assigned command, and salary information. We reviewed the
expenditures to determine if they were in accordance with the grant


                                 - 8 -

budget and the permissible uses of grant funds outlined in the OJP
Financial Guide. To determine if expenditures were supported, we
reviewed supporting documentation that included timesheets and
approved overtime cards.

Personnel

       The majority of grant expenditures were for personnel. An NYPD
official told us the most important part of the security plan during the
RNC was to have enough personnel to carry out the patrol plans and
be available to react to emergencies. The personnel charges to the
grant included overtime and compensatory time payments to over
29,000 uniformed law enforcement personnel. About 86 percent of
the funds were spent directly on overtime for police details during the
convention, while 4 percent was spent on training prior to the event,
and the remaining 10 percent was spent on other planning, such as
intelligence and inspections, before and after the convention.

       The amount of overtime needed was calculated by the RNC
planning committee and handed down to command locations for
assignment. Employees reported to RNC details from over 400
commands across the city. The commands closest to the events and
those that were not critical to everyday city safety, such as the
training unit, were utilized heavily for security during the convention.

      The NYPD followed standard procedures for recording overtime
charged to the grant. For each overtime tour worked, the employee
had to complete a standard overtime report that indicates their
scheduled shift, actual hours worked, and the reason for the overtime.
These reports are signed by the employee and authorized by a
supervisor to attest that the hours worked. The timekeepers in each
command then record these overtime hours onto a carbon copy
Employee Time Record (ETR) that is preprinted with the employee’s
payroll information. The timekeeper codes the overtime charges for
event and reason codes used in the PMS system. The timekeeper
signs the overtime report after coding, and the commanding officer
also signs the report verifying the codes. At the end of each week, the
timekeeper reviews the ETR, signs that it is complete, and sends a
carbon copy to the payroll department in headquarters. The payroll
department then feeds the carbon ETRs into a computer that optically
reads the information and enters it into the PMS system. These
procedures include a number of controls to ensure overtime is properly
authorized and complete.



                                  - 9 -

      Due to the large number of employees and the numerous
commands located across the city, we developed a pre-test of charges
to identify areas with a higher audit risk to better plan our expenditure
testing sample. We selected a pre-test sample of 11 employees at 3
command locations that had a large amount of overtime charges for
the convention. At each location we visited for the pre-test, we were
able to view the employee’s paper ETR and overtime card supporting
time worked. There were no exceptions in our pre-test sample and we
determined that those commands were following the proper
procedures as outlined above.

       Following the pre-test and determining that the NYPD’s payroll
procedures were in place, we selected a statistical sample of personnel
expenditures to determine if the charges were allowable and
adequately supported. The sample was selected by a cluster method
that included locations in all five of the city’s boroughs. Our sample
included 408 employees’ payroll charges from 34 commands totaling
$714,000.

      From our sample above, the NYPD was able to provide sufficient
documentation for 378 employees’ charges to the grant. The NYPD
could not provide documentation for the remaining 30 employees at
the time of our audit. As a result, we question $47,307 as
unsupported personnel expenditures.

      We reviewed the available records for accuracy and allowability.
Generally, the expenditure records were accurate and allowable,
except for $2,392 in expenditures related to 6 employees. The
unallowable charges consisted of $1,465 paid for overtime worked
unrelated to the RNC, $697 for an entry error that duplicated overtime
hours worked, and $231 in night shift differential paid to employees
who actually worked day shifts.4

Fringe Benefits

      The NYPD charged the grant for all personnel expenditures
incurred, and charged the remaining balance of the grant for fringe
benefit costs totaling $105,730. The NYPD’s federally approved fringe
benefit rate for fiscal year 2004 was 26 percent. However, according
to an NYPD official, the NYPD took a conservative approach and
budgeted for just the employer’s share of FICA taxes at 7.65 percent
for the supplemental award. On the total of $49,746,770 in wages,

      4
          Amounts do not sum due to rounding.


                                     - 10 -
the NYPD would have been obligated to pay at least $3,805,628 in
FICA taxes, so we find the fringe expenditure allowable. The actual
payment of taxes is difficult to trace because it is combined with
payroll from all city departments. We reviewed the city’s 2004
financial audit and determined the city paid over $3 billion in fringe
and because there was no mention of delinquent taxes, we are
satisfied that the expenditure occurred and is supported.

        In total, we tested $819,730 in payroll and fringe benefit grant
expenditures. We found $47,307 was unsupported and $2,392 was
unallowable. When expenditures are unsupported, it greatly increases
the risk of unallowable and inappropriate charges to the grant. When
expenditures are unallowable, the stated objectives of the grant are
not being fulfilled. The NYPD could not find the records for the
unsupported expenditures and told us the unallowable charges
occurred due to errors and oversight in the processing of expenditures
and adjustments have been made in PMS to correct the errors.

Drawdowns

      The OJP Financial Guide establishes standards and methods
under which the awarding agency makes payments to grantees.
Drawdown is a term used by OJP to describe when a recipient requests
grant funding from the total award amount for expenditures associated
with the grant program. The NYPD requested all of the grant funds
from two drawdowns as follows.

                             Grant Drawdowns


              Drawdown Date          Drawdown Amount
              10/15/2004                           $34,944
              5/13/2005                       $49,817,556
              Total:                         $49,825,500
              Source: OJP Drawdown Records

      The OJP Financial Guide states that grant recipients are to
minimize the time elapsing between the transfer and disbursement of
grant funds. To determine if the NYPD’s drawdown requests were
supported, we reviewed the expenditures recorded in the PMS as of
each drawdown date. We found that both drawdowns were adequately
supported and made only after incurring the actual expenses. We
determined that the NYPD properly requested drawdowns and only


                                 - 11 -
requested grant funding after using its own funds to make grant-
related expenditures.

Program Performance

       As part of this audit, we sought to measure the NYPD’s success
in meeting grant objectives. To accomplish this, we interviewed city
officials and reviewed crime statistics related to the RNC.

       The general objectives of the grant as described in the grant
award document were for the NYPD to provide traffic control,
counterterrorism intelligence, and physical security to delegates,
visitors, and facilities during the convention.

      The RNC was the first national convention in New York City after
the September 11, 2001, terrorist attacks on the World Trade Center.
The convention was designated as a National Special Security Event
(NSSE) by the U.S. Secret Service. When an event is so designated,
the Secret Service assumes its mandated role as the lead federal
agency for the design and implementation of the operational security
plan. The NSSE designation is used to delineate the roles of federal
agencies to eliminate the duplication of effort and resources.

      The convention drew an estimated 60,000 visitors to the city,
including 5,000 delegates and alternates, and 15,000 media
representatives. In addition, the convention drew an even larger,
unprecedented number of protesters, estimated at more than 100,000.
The large numbers presented huge security and safety concerns. The
convention activities took place at Madison Square Garden in the heart
of Manhattan and above Pennsylvania Station, a transportation hub to
three separate railway systems. In addition, other venues, such as
The Javits Center and more than 40 hotels housing delegates and
dignitaries, needed security protection throughout the week-long
convention.

      The NYPD started planning for convention security in the fall of
2003. The planning committee was comprised of many smaller groups
that focused on individual security challenges. The main concern for
the planning committee was obtaining the NYPD’s commitment to
provide the personnel necessary to fulfill the security plans. With the
grant funding, the NYPD was able to provide over 29,000 sworn law
enforcement personnel, typically assigned to 12-hour shifts, to assist
in convention security.



                                 - 12 -
       Intelligence gathering was pivotal in threat analysis and
counterterrorism initiatives. Intelligence took place all over the
country and worldwide to evaluate potential threats. Intelligence also
played a key role in anticipating large protests, so that the NYPD could
take a proactive role in controlling pedestrian and vehicle traffic in the
vicinity. Nearly $1,000,000 was spent on personnel charges from the
NYPD’s intelligence units.

      Traffic control was also a concern during planning because of the
mid-town Manhattan location of the convention events. The NYPD had
to ensure safe and efficient transportation for an estimated 18,000
delegates, donors, and guests to and from the convention activities.
The NYPD established dedicated RNC traffic lanes for motorcade and
bus transportation and closed busy Seventh and Eighth Avenues for
12 block stretches around the venue during convention activities. In
addition, anticipated large crowds of protesters forced the closure of
many more streets throughout Manhattan. Over $500,000 of the
grant was used to pay personnel from the NYPD’s traffic task forces
and control divisions, with additional traffic assistance from nearby
commands.

       We interviewed an NYPD planning official who told us the
security operations at the convention were a success. The convention
events took place largely without incident. The largest challenge was
what is estimated to be the largest demonstration at an American
political convention that took place the night before the convention
was scheduled to begin. During the permitted demonstration, the
NYPD arrested over 1,100 protestors in under 6 hours. Total arrests
during the convention were over 1,800. The NYPD was able to
maintain normal police coverage to all five boroughs while faced with
the increased threats in Manhattan. According to an NYPD planning
official, criminal activity was at an all-time low, and at a lower level
than a comparable week the previous year.

      Overall, based on our discussions with NYPD officials and a
review of the NYPD crime statistics and a post-convention analysis
report, we conclude the objectives of the grant were met. We verified
that all of the grant funds were used to pay for personnel and fringe
benefit costs for employees directly involved in security for the RNC.
The RNC events were conducted largely without incident, and the
NYPD was able to control large crowds of protestors.




                                  - 13 -
Other Reportable Matters

      During our audit, we reviewed the City of New York’s 2004
Single Audit that was conducted by an independent Certified Public
Accountant as required by the Office of Management and Budget
Circular A-133. The Single Audit is a review of the city’s spending of
federal awards and identifies internal control weaknesses and non-
compliance issues related to federal spending. The RNC Security grant
we audited was tested as part of the Single Audit.

      The Single Audit reported a non-compliance finding related to
this grant, concluding that the NYPD did not provide support for the
non-federal share of the grant award totaling $1,596,115. The NYPD’s
response to the finding was that a non-federal share was not required
by the terms of the grant, so no support for the charges was needed.

      We reviewed the grant budget and found that there was no
matching requirement for award; however, a non-federal share
representing fringe benefits was included in the supplemental award’s
budget. This occurred because the NYPD submitted a budget including
fringe benefits with estimated expenses that were $1,596,115 more
than the congressional appropriation of $25,000,000. Because the BJA
could not provide all of the funding needed for the estimated
expenses, the overage of fringe benefit costs on the approved
personnel charges were listed as the non-federal share. Because the
grant program does not require matching funds, the BJA noted that a
match was not required, but it is necessary for successful completion
of the grant.

       We conclude the non-federal share was not a requirement of the
grant program. Additionally, we determined that the NYPD would have
incurred at least $3,805,628 in FICA employer tax obligations on the
$49,746,770 of personnel wages paid by the grant. It would be
difficult to trace the actual FICA tax payment as the payment would
have been combined with taxes from all other city departments. We
reviewed the city’s Consolidated Annual Financial Report and found
that city paid over $3 billion in fringe benefits. Because there was no
mention of delinquent taxes, we conclude the obligation was satisfied
and is supported.

Conclusions

      We determined that the NYPD complied with most grant
requirements in the areas we tested and also achieved the objectives


                                - 14 -
of the grant. However, the NYPD did not report the financial and
program progress of the grant program to the BJA in an accurate and
timely manner. Additionally, the NYPD did not maintain adequate
documentation for all grant expenditures, and made errors in
calculating some expenditures. As a result of these deficiencies, we
question a total of $49,699 in expenditures: $47,307 in unsupported
expenditures and $2,392 in unallowable expenditures.

Recommendations

     We recommend that BJA:

     1. Ensure that the NYPD submits accurate and timely Financial
        Status Reports and Progress Reports during the grant
        program.

     2. Remedy $47,307 in unsupported expenditures.

     3. Remedy $2,392 in unallowable expenditures.




                                - 15 -
                                                         APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY

      The objective of the audit was to determine whether
reimbursements claimed for costs under the grant were allowable,
supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grant.

       We conducted our audit in accordance with Government Auditing
Standards and included tests considered necessary to accomplish our
objectives. Our audit included review of grant activities throughout
the life of the grant, which concluded in January 2006. We audited
grant 2004-DD-B5-1191 and its supplement, which provided to the
NYPD $49,852,500 for security during the Republican National
Convention, which occurred in New York City from August 30 to
September 2, 2004.

      We tested compliance with what we considered to be the most
important conditions of the grant. Unless otherwise stated in our
report, we applied the 2002 OJP Financial Guide as our primary criteria
in auditing this grant. The OJP Financial Guide serves as a reference
manual assisting award recipients in their fiduciary responsibility to
safeguard awarded funds and ensure funds are used appropriately.
We used the 2002 version of the OJP Financial Guide as opposed to the
most recent version, because the 2002 version is the one that would
have been applicable during the life of the grant.

      In conducting our audit, we performed testing in each of the
following areas.

       Test of reporting to determine if the required Financial Status
Reports (FSRs) were submitted on time and accurately reflect grant
activity. We reviewed each of The NYPD’s FSRs for accuracy by
comparing grant expenditures reported on the FSR to the actual grant
expenditures recorded in The NYPD’s automated accounting system.
We also reviewed each of the NYPD’s FSRs for timeliness by comparing
the submission date on each report to the quarter end date. Using the
OJP Financial Guide as our criteria, we determined FSRs to be late if
they were submitted more than 45 days after the end of the quarter
reporting period, and a final FSR to be late if submitted more than 120
days after the end date of the award.




                                - 16 -
       Test of reporting to determine if the required progress reports
were submitted on time and accurately reflect grant activity. We
reviewed the NYPD’s progress reports for grant 2004-DD-B5-1191 for
accuracy by comparing grant activity shown in grant documentation
that was supplied to us by OJP and the NYPD to activity that was
reported in the progress report. We also reviewed the progress report
for timeliness by comparing the submission date on the report to the
semiannual reporting period end date. Using the OJP Financial Guide
as criteria, we determined progress reports to be late if they were
submitted more than 30 days past the end of the reporting periods of
June 30 and December 31.

      Test for budget management and control to determine whether
the grantee adhered to the OJP-approved budget for expenditure of
grant funds. We compared the OJP-approved Financial Clearance
Memorandum and grant application to the NYPD’s expenditure records
and documentation. The OJP Financial Guide states that the
cumulative transfer amount between approved budget categories
cannot exceed 10 percent of the total budget.

     Test for grant expenditures to determine if costs charged to the
grant were accurate, allowable, and supported. We statistically
selected for testing a sample of personnel expenditures. We compared
the amounts charged to the grant to source documents, such
as timesheets, overtime cards, and information from the NYPD’s
payroll system, to determine whether the expenditures were properly
supported. We also compared the expenditures to the approved grant
budget to determine whether the expenditures were allowable.

     Test of drawdowns to determine whether requests for grant
funding were adequately supported and if the NYPD was managing
grant receipts in accordance with federal requirements. We compared
the NYPD’s expenditure records, FSRs, and other documentation to the
drawdowns reported by OJP. We then determined whether the NYPD
minimized the amount of time between receiving and disbursing funds.

     Test for program performance to determine if grant objectives are
being met. The general objectives of the grant as described in the
grant award document were for the NYPD to provide traffic control,
counterterrorism intelligence, and physical security to delegates,
visitors, and facilities. To determine if the objectives were met, we
interviewed city officials and reviewed impact reports and crime
statistics.



                                - 17 -
    Test for program income, matching costs, and subgrantee
monitoring when applicable. For this grant, we reviewed grant
documentation, interviewed responsible officials, and reviewed grant
expenditures. We determined The NYPD generated no program
income, matching funds were not required, and there were no
subgrantees.

     Test of internal controls. We did not test internal controls for the
NYPD as a whole or specifically for the BJA grant administered by the
NYPD. The City of New York had an audit conducted by an
independent Certified Public Accountant, the results of which were
reported in the Single Audit Report that accompanied the
Comprehensive Annual Financial Report for the year ended June 30,
2004. The Single Audit Report was prepared under the provisions of
Office of Management and Budget Circular A-133. We reviewed the
independent auditor's assessment and determined there was a
noncompliance issues related to the grant we audited as described in
the Other Reportable Matters section of this report. After review of
grant documentation and the NYPD’s response, we determined the
noncompliance issue did not warrant additional expenditure testing.
We performed limited testing of source documents to assess the
accuracy of reimbursement requests and financial status reports;
however, we did not test the reliability of the financial management
system as a whole.




                                  - 18 -
                                                                 APPENDIX II

             SCHEDULE OF DOLLAR-RELATED FINDINGS


QUESTIONED COSTS:                                          AMOUNT        PAGE

 Unsupported Expenditures                                    $47,307       10

Unallowable Expenditures                                      $2,392       10

TOTAL QUESTIONED COSTS:                                      $49,699

TOTAL DOLLAR-RELATED FINDINGS:                              $49,699

Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the
time of the audit, or are unnecessary or unreasonable. Questioned costs may be
remedied by offset, waiver, recovery of funds, or the provision of supporting
documentation.




                                     - 19 -
                                                                                           APPENDIX III 


CITY OF NEW YORK POLICE DEPARTMENT’S RESPONSE 




                                                       THE POLICE COMMISSIONER
                                                                  CITY OF NEW YORK



                                                                  October 17, 2006
 Richard A. McGeary
 Regional Audit Manager
 United States Department of Justice
 Office of the Inspector General
 Philadelphia Regional Office
 701 Market Street, Suite 201
 Philadelphia, PA 19106


 Dear Mr. McGeary:

         First we would like to thank your audit team for the thorough and fair audit of the Department
 of Justice, Office of Justice Programs, Bureau of Justice Assistance grant #2004-DD-B5-1191. These
 funds were used to provide security for the 2004 Republican National Convention (RNC). In total, the
 New York City Police Department (NYPD) was awarded $49,852,500 for police overtime and fringe
 benefits. This audit determined that the primary objectives of the grant were indeed met.

          The auditors selected a sample size of 408 individuals pulled from over 29,000 people who
 billed time to this grant. For each individual selected, the auditors requested the paper overtime slip(s)
 and the Electronic Time Record (ETR) for the pay period(s) selected. The City of New York is in the
 process of automating the payroll system, but a considerable amount of it is still paper-based. Since
 the RNC was over two years ago, many of the employees involved have since retired or were promoted
 and/or transferred. Thus it presents a great challenge to follow the paper trail. There also is the added
 complication of flooding, asbestos and other environmental issues that hinder the maintenance of paper
 records. At the time of the cutoff date the Department was still attempting to locate some of the
 missing overtime slips in order to further substantiate the unsupported expenditures. In lieu of missing
 hard copy documentation, printouts utilizing data from the Citywide Payroll Management System were
 substituted. The audit findings cite $49,699 as unsupported expenditures and $2,392 as questioned
 costs. This is an extremely small percentage considering the considerable size of this grant and the
 large number of people employed by the New York City Police Department.

         Regarding the questioned costs, these are dollar amounts that should not have been billed to the
 grant. For example, the individual may have performed overtime for another function or event, and it
 was erroneously billed to the RNC When a person retires or terminates employment with the NYPD,
 the Leave Integrity Management Section, (LIMS) does an audit of all overtime and compensatory time
 performed by that individual, whether it was grant-funded or not. At that time, a reconciliation is done
 and adjustments are made as needed to insure that the records are accurate. Unfortunately if a grant
 has closed, those adjustments would not be reflected in the grant documentation. The same would hold
 true for overtime errors in the opposite direction - where the grant should have been billed and was
 not. The Department is considering the implementation of a similar procedure to test a statistically

                  1 Police Plaza, New York, NY 10038 • 646-610-5410      •   Fax: 646-610-5865
                                          Website: http://nyc.gov/nypd




                                               - 20 -
significant portion of grant-funded overtime prior to the expiration of a grant in order to remedy this
issue. Also, as a result of a recent NYPD reorganization, the Grants Development Unit is now
overseen by the Deputy Commissioner of Management and Budget, (DCMB), the Chief Financial
Officer of the NYPD, effective April 1, 2006. This organizational change, plus the addition of the
Fiscal Accountability Unit to the DeMB command and the enhanced involvement of LIMS (also part
of DCMB) should enhance the future oversight of Federal grant funding.

         Regarding reporting, the audit report indicates issues with the Financial Status Report and
Progress Report submissions. The NYPD generally concurs with the audit findings with regards to
these fiscal and programmatic reports; however, it should be noted that OJP (BJA) never notified the
Department of any delinquent or missing financial or programmatic reports for this grant. The finding
that fiscal reports for periods with zero expenditures were not submitted is noted and the Department
has implemented procedures to insure that future grants that have zero activity for an entire reporting
period will still adhere to the required reporting procedures. The Progress Report finding is of
particular interest because that was a finding in the 2005 Single Audit that New York City conducts
annually on Federal grant funds. At that time, a finding was noted that no Progress Reports had been
submitted for this grant. The following statement was made on page 6 of the draft audit report:

"During the life of the grant, the NYPD would have been required to submit five progress reports
unless advised otherwise by the BJA."

The NYPD was in fact advised otherwise in April 2005 and followed the instructions of our Program
Manager at the Bureau of Justice Assistance. He was consulted to see how many Progress Reports
needed to be submitted in order to rectify this finding, and the Department was told "two". These two
reports were submitted on line via the Federal Grants Management System. In fact, BJA needed to
access the system to approve the first one before we could submit the second one, which we indicated
was the final one per the direction of BJ A.

        In closing, the convention was a culmination of eighteen months of meticulous planning and
coordination among numerous Federal, State and Local agencies and it was an overwhelming success.
In addition to the Federal grant money that was spent on this event, a considerable amount of City
funds covered additional personnel service costs, as well as purchasing equipment and Othei Than
Personnel Service (OTPS) items as deemed necessary. In fact, the Department budgeted close to $76
million dollars in total (including grant and City funds) to insure the success of the Republican
National Convention, and that does not include other City agencies which were involved with this
event. We could have billed more costs to the grant since the NYPD costs were approximately 50%
greater than the grant total. In the future, the Department intends to do just that in order to insure that
the total grant amount is spent appropriately and in order to cover the inevitable small percentage of
error. Due to the overall success of this event, we would hope that New York City would be
considered for future Federal grant funds of this type should we host another convention.




                                                 - 21 -
                                                                                      APPENDIX IV 


      OFFICE OF JUSTICE PROGRAMS’ RESPONSE 



                                                     u.s. Department of Justice
                                                     Office of Justice Programs

                                                     Office of the Comptroller



 OCT 21)2006                                         Washington. D.C. 20531




MEMORANDUM TO:               Richard A. McGeary
                             Regional Audit Manager
                             Philadelphia Regional Audit Office
                             Office of the Inspector General    ~

                                                               9--~.
FROM:                        Marcia K. Paull ~~
                             Chief Financial Officer

SUBJECT:                     Response to the Draft Audit Report of the Office of Justice
                             Programs - Bureau of Justice Assistance Grant to the New York
                             City Police Department, Grant Number 2004-DD-B5-1191

This memorandum is in reference to your correspondence dated September 29,2006,
transmitting the above-referenced draft audit report for the New York City Police Department
(NYPD). We consider the subject report resolved and request written acceptance ofthis action
from your office.

The report contains three recommendations and $49,699 in questioned costs. The following is
our analysis ofthe audit recommendations.

1.     Ensure that the NVPD submits accurate and timely Financial Status Reports and
       Progress Reports during the grant program.

       We agree with the recommendation. We will coordinate with the NYPD to obtain a
       written response specifying controls implemented to ensure that Financial Status Reports
       and Progress Reports are submitted accurately and timely.

2.     Remedy $47,307 in unsupported expenditures.

       We agree with the recoI11Illendation. We will coordinate with the NYPD to obtain
       documentation to support the $47,307 in unsupported personnel expenditures.

3.    Remedy $2,392 in unallowable expenditures.

      We agree with the recommendation. We will coordinate with the NYPD to remedy the
      $2,392 in unallowable personnel expenditures.




                                            - 22 -
We appreciate the opportunity to review and comment on the draft report. We will continue to
work with the grantee to address the recommendations. If you have any questions or require
additionai information, please contact Alisha Holman of my staff at (202) 6! 6-2926. '

cc:    Richard P. Theis
       Assistant Director
       Audit Liaison Group

       Maria Pressley
       Audit Liaison
       Bureau of Justice Assistance

       Michael Dever
       Program Manager
       Bureau of Justice Assistance

       OJP Executive Secretariat
       Control Number 20061277




                                           - 23 -
                                                         APPENDIX V

       OIG, AUDIT DIVISION, ANALYSIS AND SUMMARY OF 

          ACTIONS NECESSARY TO CLOSE THE REPORT 


      We provided the draft report to both the NYPD and OJP for review
and comment. In their responses, the NYPD and OJP agreed with all of
our recommendations. We consider all three recommendations
resolved. We included the NYPD’s response as Appendix III to this
report, and OJP’s response as Appendix IV. The status of the individual
recommendations and the action necessary to close each
recommendation is provided below.

1. 	   Resolved. Ensure that the NYPD submits accurate and timely
       Financial Status Reports and Progress Reports during the grant
       program.

       This recommendation is resolved based on: (a) the NYPD
       implementing procedures to ensure future grants will adhere to
       all reporting requirements, and (b) OJP’s agreement to
       coordinate with the NYPD to ensure reports are submitted
       accurately and timely. This recommendation can be closed when
       we receive documentation that the NYPD has implemented
       control procedures to ensure accurate and timely reporting of
       grant financial and program information.

2.	    Resolved. Remedy $47,307 in unsupported expenditures.

       This recommendation is resolved based on: (a) the NYPD’s
       effort to verify expenditures through documentation other than
       employee timesheets and overtime cards, and (b) OJP’s
       agreement to coordinate with the NYPD to obtain supporting
       documentation for the expenditures. This recommendation can
       be closed when we receive documentation that the NYPD has
       adequately supported the $47,307 in grant expenditures.

3. 	   Resolved. Remedy $2,392 in unallowable expenditures.

       This recommendation is resolved based on: (a) the NYPD’s
       agreement that these expenditures should not have been billed
       to the grant, and (b) OJP’s agreement to coordinate with the
       NYPD to remedy the expenditures. This recommendation can be



                                 - 24 -
closed when we receive documentation that the $2,392 in
unallowable expenditures has been remedied.




                         - 25 -
